           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        PLAN TO ACHIEVE
     SELF-SUPPORT PROGRAM

      May 2010   A-01-09-19034




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                SOCIAL SECURITY
M EM ORANDUM

Date:      May 18, 2010                                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Plan to Achieve Self-Support Program (A-01-09-19034)


           OBJECTIVE

           The objective of our review was to determine whether the Plan to Achieve Self-Support
           (PASS) program helped disabled recipients return to work and generated savings for
           the Social Security Administration (SSA).

           BACKGROUND
           Supplemental Security Income (SSI) is a nation-wide, Federal cash assistance program
           administered by SSA that provides a minimum level of income to financially needy
                                                            1
           individuals who are aged, blind, and/or disabled. No individual shall be considered
           eligible for SSI payments for any period he or she has income or resources that exceed
           the allowable limits established under the Social Security Act. 2

           One of SSA’s priorities is to support the efforts of disabled beneficiaries who want to
           work by developing policies and services to help them reach their employment goals.
           To that end, the Disability Insurance (DI) and SSI programs include a number of
           employment support provisions commonly referred to as work incentives. 3 The PASS
           program is one of these work incentives.

           The Social Security Act authorizes the exclusion of the income and resources of an
           individual who has a disability or is blind when the individual needs such income and
           resources to fulfill an approved PASS. 4 The income and/or resources the individual

           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               The Social Security Act § 1611(a), 42 U.S.C. § 1382(a), 20 C.F.R. §§ 416.202(c) and (d).
           3
               The DI program provides benefits to eligible individuals under Title II of the Social Security Act.
           4
            The Social Security Act §§ 1612(b)(4)(A) and (B), 42 U.S.C. §§ 1382a(b)(4)(A) and (B),
           20 C.F.R. §§ 416.1112(c)(9) and 416.1124(c)(13). Also, the Social Security Act § 1613(a)(4),
           42 U.S.C. § 1382b(a)(4), 20 C.F.R. § 416.1210(f).
Page 2 - The Commissioner


uses to pursue the PASS will not be counted in determining eligibility or payment
amount for SSI, thus potentially allowing for SSI qualification and/or an increase in the
recipient’s SSI payment over the amount otherwise payable.

Each PASS must have an occupational goal. The individual should have either a
specific work goal or a description of the type of job he or she expects to have at the
end of the PASS plan. The work goal must be feasible and should be expected to
increase the individual’s prospect for self-support. Although Congress does not define
self-support, SSA defines it as a reduction or elimination of SSA benefits. That means
a PASS must be expected to generate sufficient earnings to substantially reduce or
eliminate SSI or eliminate DI benefits. 5

As of January 1, 1995, the Social Security Act requires that a PASS consider the length
of time the individual needs to achieve the employment goal. 6 Before that date, a
PASS could not exceed 36 or 48 months, depending on the length of education or
training involved. PASS experts are required to conduct at least one progress review
annually for each PASS participant.

In April 1996, SSA implemented several changes to the PASS provision, including
establishment of a cadre of employees to review all PASS actions. In 1995 (before
these changes), over 10,000 SSI recipients participated in the PASS program.
However, this dropped to about 4,700 individuals in 1996 and was well below this level
through 2008.

To perform our review, we identified 2,622 SSI recipients who participated in the PASS
program in Calendar Year (CY) 2005. We randomly selected 50 cases from this
population for detailed analysis. (See Appendix B for more information on our scope,
methodology, and sample results.)

RESULTS OF REVIEW

While the PASS program helped some recipients return to work, the costs of the
program outweighed the savings. Based on our review, we estimate that, of the
2,622 recipients who had a PASS in CY 2005, approximately 2,100 completed a PASS
that resulted in about $28.8 million in additional SSI payments due to income
exclusions. 7 Of these 2,100 recipients, about 1,050 had earnings that led to a
reduction or suspension of benefits—resulting in savings of about $11.6 million to the
Agency.



5
    20 C.F.R. § 416.1181(a)(7).
6
    The Social Security Act § 1633(d), 42 U.S.C. § 1383b(d), 20 C.F.R. § 416.1181(b).
7
 In addition to the SSI funds paid to PASS participants, there are administrative costs associated with the
program, such as the salary and benefits for the PASS cadre, which we did not quantify.
Page 3 - The Commissioner


                                                Our review of 50 cases found the following.
            Chart 1: Sample Results
                                                   In 20 cases (40 percent), the PASS did not
                                                    result in savings to SSA.
PASS Resulted        Unable to
in Savings           Evaluate PASS
                                                   In 20 cases (40 percent), the PASS resulted
                          4%                                           8
      40%
                                                    in savings to SSA.

                                                   In 8 cases (16 percent), the PASS was still
                                                    ongoing as of October 2009.
                                       40%

             16%                                   In 2 cases (4 percent), the recipients died
                        PASS Did Not                shortly after their PASS ended; therefore,
     Ongoing PASS       Result in Savings           we were unable to determine whether the
                                                    PASS resulted in savings.


PASS DID NOT RESULT IN SAVINGS

Of the 50 recipients in our sample, 20 had a completed PASS that did not result in
savings to SSA. These 20 recipients received a total of about $243,000 in additional
                                                     9
SSI payments because of PASS income exclusions. None of these recipients had
earnings after the PASS ended that reduced or suspended their SSI or DI benefits. 10
SSA suspended more than half these PASS plans because the recipient did not follow
the plan or did not provide necessary documentation. Additionally, 7 of these
20 recipients only became entitled to SSI because of the PASS program. Without
PASS income exclusions, their income was too high to qualify for SSI payments. Of
these seven recipients, four had earnings after the PASS ended. However, the
earnings did not result in savings to SSA because there would not have been any SSI
                                                       11
payments to the individuals without the PASS program.

For example, a woman receiving both DI and SSI was approved for a PASS in
December 2002. The PASS allowed her to set aside income needed to pay for start-up
costs related to her occupational goal of becoming a musician. From December 2002
through August 2007, SSA did not count this income in determining her payment


8
    We assumed earnings after the PASS was completed resulted from the PASS program.
9
    This amount was paid over an average of 25 months, ranging from 5 to 87 months.
10
   An average of 38 months had elapsed from the date the PASS ended through October 2009, ranging
from 12 to 54 months.
11
   We issued a report in September 1999 that quantified the SSI benefits paid to OASDI beneficiaries who
would not otherwise be eligible for SSI without a PASS. In that report, we recommended that SSA pursue
legislation to discontinue the practice of OASDI beneficiaries using PASS as a means to establish SSI
eligibility. However, SSA did not agree with the recommendation. SSA, OIG, Use of Plans for Achieving
Self-Support to Obtain Supplemental Security Income Benefits (A-01-98-61006).
Page 4 - The Commissioner


amount for SSI. As a result, she received additional SSI payments of $23,975. Since
the PASS ended over 2 years ago, she has had no earnings and therefore her benefits
were not reduced.

PASS RESULTED IN SOME SAVINGS

Of the 50 recipients in our sample, 20 had a completed PASS that resulted in savings
to SSA. These 20 recipients received a total of about $307,000 in additional SSI
                                                  12
payments because of PASS income exclusions. All 20 recipients worked after the
PASS ended, and their work caused benefit reductions or suspensions that resulted in
about $221,000 in savings to SSA from the date the PASS ended until October 2009. 13
Additionally, in 9 of these 20 cases, savings are ongoing because the recipients’
benefits are currently suspended or reduced due to wages. (We did not calculate
savings beyond October 2009 because we could not determine how long the recipients
would continue to have their payments reduced because of earnings.)

For example, a woman receiving SSI was approved for a PASS in December 2004.
The PASS allowed her to set aside income for her occupational goal of becoming an
engineer. From December 2004 through August 2007, SSA did not count this income
in determining her payment amount for SSI. As a result, she received additional SSI
payments of $4,788. When the PASS ended, she returned to work earning more than
the allowable SSI income limit. As a result, SSA suspended her benefits. As of
October 2009, her SSI suspension had resulted in savings to SSA of $16,876.

Table 1 shows some cases had a small percentage of savings when compared to the
amount of additional SSI paid, while other cases had a large percentage of savings.
See Table B-4 in Appendix B for a breakout of the percentage of savings for each case.
                 Table 1: Portion of Savings Compared to the Amount of
                                   Additional SSI Paid
                                      Portion of Savings Compared to the
                Number of Cases
                                         Amount of Additional SSI Paid
                       4                             0-10%
                       2                            11%-25%
                       3                            26%-50%
                       2                            51%-75%
                       1                           76%-100%
                       8                           Over 100%
                   Total: 20




12
     This amount was paid over an average of 38 months, ranging from 9 to 125 months.
13
   An average of 38 months had elapsed from the date the PASS ended through October 2009, ranging
from 1 month to 56 months. None of these recipients were eligible for SSI based solely on PASS income
exclusions.
Page 5 - The Commissioner


In another example, a woman receiving DI and SSI was approved for a PASS in
November 2000. The PASS allowed her to set aside income needed for her
occupational goal, which was originally to be a jeweler, but she changed her
occupational goal in November 2003 to be a community college teacher. This income
was used to pay for rent and tuition at a school in Germany as well as for vehicle repair
expenses. 14 From November 2000 through November 2007, SSA did not count this
income in determining her payment amount for SSI. As a result, she received
additional SSI payments of over $45,000. In November 2007, SSA suspended her
PASS because she did not provide the documentation necessary for a progress review.
Since the PASS was suspended, she earned income that resulted in savings to SSA of
$435.

ONGOING PASS

Of the 50 cases in our sample, 8 still had an ongoing PASS. As of October 2009, these
eight recipients had received a total of about $165,770 in additional SSI payments
because of PASS income exclusions. These PASSes have been ongoing for at least
4 years, with one as long as 7 years. Over the last 2 years, SSA has conducted
progress reviews at least once annually for these eight cases. Additionally, two of
these eight recipients became entitled to SSI because of the PASS program. Without
PASS income exclusions, their income was too high to qualify for SSI payments.

For example, a man receiving both DI and SSI was approved for a PASS in June 2004.
The PASS allowed him to set aside income needed for his occupational goal of
becoming a truck driver. This income was used to pay for a truck, trailer, and driveway.
Since June 2004, SSA did not count this income in determining his payment amount.
As a result, he received additional SSI payments of $42,311. SSA conducted progress
reviews in April 2008 and August 2009. As a part of these reviews, the recipient
submitted his self-employment tax returns for 2007 and 2008. These tax returns
showed gross income of about $81,000 for 2007 and $99,000 for 2008, but, after his
expenses (many of which were paid for by the PASS program) were deducted, his
business showed a net loss. At his last review in August 2009, SSA decided to extend
his PASS for another year because of the economy.

In another example, a woman receiving DI and SSI was approved for a PASS in
December 2004. The PASS allowed her to set aside income needed for her
occupational goal of becoming a social worker. This income was used to pay for school
and relocation expenses. Since December 2004, SSA was not counting this income in
determining her payment amount for SSI and as a result she received additional SSI
payments of $26,000. SSA performed progress reviews in June 2008 and
February 2009. As part of these reviews, the recipient submitted receipts for items,



14
  Although individuals who are outside the United States are generally ineligible for SSI, there is an
exception for certain students who are temporarily abroad. Program Operations Manual System,
SI 00501.411.
Page 6 - The Commissioner


such as Internet and licensing fees, to be excluded as income. This recipient earned
her Bachelor of Social Work degree in December 2007. In November 2009, she
contacted SSA to request the PASS for another year so she could pursue her Master’s
degree in Social Work. She claimed she could not find a job, and there were more
opportunities with a Master’s degree.

CONCLUSION AND RECOMMENDATION
Congress intended the employment support provisions, such as PASS, to provide
disabled beneficiaries with the assistance needed to move from benefit dependence to
independence. In other words, employment supports are designed to help beneficiaries
enter, re-enter, or stay in the workforce by protecting their eligibility for cash payments
and/or health care until their employment goal is achieved.

We found that the PASS program provided assistance to some recipients who wanted
to return to work. Based on our review, we estimate that about 1,050 (of about
2,100) recipients who had a PASS in CY 2005, completed it and were able to move
further toward independence. However, we also found that the program costs
outweighed the savings. We estimate that SSA paid approximately $28.8 million in
additional SSI payments because of PASS income exclusions, but only $11.6 million
was saved as a result of the recipients earning enough through their work to result in a
reduction or suspension of benefits.

Therefore, we recommend SSA reinforce to its PASS cadres that PASSes should be for
feasible and realistic goals that are expected to increase (a) the recipient’s prospect for
self-support and (b) the likelihood of savings to SSA’s programs.

AGENCY COMMENTS
SSA agreed with the recommendation. The Agency informed us that it contacted all
PASS specialists directly and reiterated their responsibilities in administering these
policies. Although SSA agreed with the recommendation, the Agency also expressed
some concerns about our report. SSA believes it is misleading to conclude broadly that
the costs of the PASS program outweigh the savings when we did not include savings
that will accrue to the program beyond October 2009. The full text of SSA’s comments
is included in Appendix C.
Page 7 - The Commissioner


OIG RESPONSE
We believe our conclusion that the costs of the PASS program outweigh the savings is
supported by the facts presented in the report. Our results showed that only 9 of our
50 sample cases had a completed PASS and had income that resulted in ongoing
savings to SSA as of October 2009. As of May 2010, ongoing savings had stopped in
two of the nine cases. Specifically, savings stopped in December 2009 for one case
and May 2010 in the other case. Further, for the remaining seven cases, the savings
could stop at any time for any number of reasons, such as imprisonment, medical
improvement, a change in living arrangements, excess resources, or wages and/or
resources of a spouse. The average monthly savings for these seven cases was
$789—ranging from a low $58 in monthly savings to a high of $1,688 in monthly
savings.




                                                 Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgements
                                          Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
CY       Calendar Year
DI       Disability Insurance
PASS     Plan to Achieve Self-Support
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                     Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

   Reviewed the applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

   Reviewed prior Office of the Inspector General reports.

   Obtained a file of 2,622 Supplemental Security Income (SSI) recipients who had a
    Plan to Achieve Self-Support (PASS) in Calendar Year 2005.

   Selected a sample of 50 cases from the population for detailed analysis. For each
    case, we:

        Determined whether the PASS ended or was ongoing.
        Calculated the number of months SSA applied PASS income exclusions.
        Calculated the amount of additional SSI payments made because of PASS
         income exclusions.
        Calculated the number of months that elapsed from the date the PASS
         ended through October 2009.
        Determined whether the PASS produced savings for SSA. We did this by
         determining whether the individual's SSI and/or Disability Insurance benefits
         were reduced or suspended because of earnings after the PASS ended. We
         calculated the savings, when applicable.
        Referred cases with an ongoing PASS to SSA to obtain information regarding
         annual reviews.

We conducted our review between October and December 2009 in Boston,
Massachusetts. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our audit objective. The principal entity audited was the
Office of Program Development and Research under the Deputy Commissioner for
Retirement and Disability Policy.

We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

                                           B-1
SAMPLE RESULTS

                  Table B-1: Population and Sample Size
 Population size                                                           2,622
 Sample size                                                                  50

Note: All Projections are at the 90-percent confidence level.

 Table B-2: Additional SSI                                      Amount of Additional SSI
                                         Number of
 Payments Made Because                                            Paid Because of the
                                         Recipients
 of the PASS Program                                                     PASS
 Sample Results                                 40                         $549,975
 Point Estimate                             2,098                       $28,840,674
   Projection Lower Limit                   1,798                       $21,365,859
   Projection Upper Limit                   2,324                       $36,315,489

 Table B-3: Savings as a                                         Amount of Savings to
                                        Number of
 Result of the PASS                                               SSA Because of the
                                        Recipients
 Program                                                                PASS
 Sample Results                                 20                         $220,603
 Point Estimate                             1,049                       $11,568,401
   Projection Lower Limit                      745                       $6,429,109
   Projection Upper Limit                   1,376                       $16,707,693




                                                  B-2
Table B-4: Percent of Savings Compared to the Amount of
                   Additional SSI Paid
                           Portion of Savings Compared to
 Number of Cases
                          the Amount of Additional SSI Paid
          1                              1%
          1                              6%
          1                              7%
          1                              9%
          1                              24%
          1                              25%
          2                              26%
          1                              33%
          1                              51%
          1                              57%
          1                              82%
          1                             149%
          1                             164%
          1                             168%
          1                             175%
          1                             179%
          1                             204%
          1                             353%
          1                             582%
Total:   20




                               B-3
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      May 05, 2010                                                             Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn //s//
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Plan to Achieve Self-Support Program”
           (A-01-09-19034)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“PLAN TO ACHIEVING SELF-SUPPORT PROGRAM” (A-01-09-19034)


This provides our comments on the subject draft report.

GENERAL COMMENT

We believe it is misleading for you to conclude broadly that the costs of the PASS program
outweigh the savings when you have not included the savings that will accrue to the program
beyond October 2009. You say on page two under “Results of Review” and again on page six
under “Conclusion and Recommendation” that, “the costs of the program outweighed the
savings.” We believe the report would be more informative if you discussed the fact that the
PASS program incurs costs up-front, while savings accrue over several years.

Although you allude to the limited scope of the audit on Page 4, in footnote 13 you state, “We
did not calculate savings beyond October 2009 because we do not know how long the recipients
will continue to have their payments reduced because of earnings,” we believe you should
discuss this important point more prominently and not relegate it to a footnote. The
$11.6 million in savings you describe is only part of the story -- one that grows increasingly
outdated as time passes. The average reader will not glean this fact from the report. By way of
contrast, we offer an example of one of your prior audits where you do consider the effects of
time:

This past March, you issued an Evaluation Report titled, “Full Medical Continuing Disability
Reviews.” In the report you make recommendations on the actions we should take to eliminate
the 1.5 million case backlog of medical CDRs. You state further that, “We estimate SSA could
potentially identify lifetime (underlined for emphasis) Federal benefit savings of almost
$15.8 billion if it had the resources to conduct all 1.5 million CDRs in FY 2010.” We are not
suggesting that the magnitude of the ongoing PASS savings is anything near the CDR savings,
but it is improper to totally discount longer-term savings while concluding that the PASS
program is a losing proposition. You make a comparison of the costs incurred during a set
period of time versus the savings accrued during that same time when it is clear that there are
additional savings that should be included. We suggest you make an effort to estimate those
savings or refrain from making the conclusion that the program results in a loss.

COMMENT ON RECOMMENDATION

Recommendation

SSA should reinforce to its PASS cadres that PASSes should be for feasible and realistic goals
that are expected to increase: a) the recipient’s prospect for self-support; and b) the likelihood of
savings to SSA’s programs.




                                                  C-2
Comment

We agree. Program Operations Manual System (POMS) sections SI 00870.006 A.3 through A.5
specifically state that PASS goals must be feasible, and plans for achieving those goals must be
viable. We contacted all PASS specialists directly and reiterated their responsibilities in
administering these policies.




[SSA also provided technical comments which were incorporated into the final report
where appropriate.]




                                               C-3
                                                                     Ap p e n d ix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19034.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
